   September 5, 2002




Acquisition
Acquisition of the Army Land Warrior
System
(D-2002-143)




              Department of Defense
          Office of the Inspector General

Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
DCMA                  Defense Contract Management Agency
DOORS                 Dynamic Object-Oriented Requirements System
TRADOC                Training and Doctrine Command
         Office of the Inspector General of the Department of Defense
Report No. D-2002-143                                                September 5, 2002
  (Project No. D2001AE-0145)

               Acquisition of the Army Land Warrior System

                                Executive Summary

Who Should Read This Report and Why? This report concerns those managers who
are specifically involved in the management, support, and oversight of DoD acquisition
programs.
Background. The Land Warrior System is a first generation integrated fighting system
for dismounted combat soldiers. The Land Warrior System is intended to enhance the
lethality, command and control, survivability, mobility, and sustainability of individual
soldiers and infantry units and is intended to be fully interoperable with the digital
command and control of other platforms. The Land Warrior System’s capabilities
contribute to the Joint Vision 2010 operational concept of situational awareness and
dominant maneuvering by dismounted forces. Funding for the Land Warrior System is
$497.3 million for research, development, test and evaluation and $1,940.4 million for
procurement. The Under Secretary of Defense for Acquisition, Technology, and
Logistics (the Under Secretary), the acquisition milestone authority, designated the
Land Warrior System as an acquisition category I program on May 29, 2002, because
the Land Warrior Program meets the requirements for an acquisition category I
program based on estimated research, development, test, and evaluation costs.

Results. The Program Manager for the Land Warrior System (the program manager)
effectively implemented an evolutionary acquisition strategy to develop and produce the
Land Warrior System in three sequential blocks to reduce technical risk and to expedite
fielding the Land Warrior’s capabilities. In executing the evolutionary acquisition
strategy, the following areas require additional management attention:

   •   The Army had not finalized system requirements in the operational requirements
       document because the Training and Doctrine Command (TRADOC) System
       Manager-Soldier was still defining the force structure requirement for the Land
       Warrior System to accommodate the Army’s ongoing transformation to the
       Objective Force capability. Also, the Army had not fully defined the mix of
       Land Warrior components that it will provide to soldiers receiving the system.
       Additionally, the Army Training and Doctrine Command released a draft
       operational requirements document for coordination that did not identify
       reliability as a critical performance parameter for the Block II system. Until the
       Army completes ongoing efforts to fully define force structure requirements for
       the Land Warrior System, it will be less able to make informed affordability
       decisions and to support future budget submissions for the program. Also, the
       Army may develop and approve a system for production that does not fully meet
       user requirements (finding A).
   •   The program manager did not insert a suggested provision for performance
       metrics in the other transactions agreement with the Land Warrior Consortium
       to measure the benefits of implementing the other transactions agreement. As a
       result, the program manager will be less able to provide the acquisition
       community with measurable information on the value of using an other
       transactions agreement for acquisition programs (finding B).

   •   The delegation agreement between the Agreements Officer for the program
       office and the Defense Contract Management Agency, Syracuse, provided
       limited and vaguely defined requirements for administration support. As a
       result, the program manager may not obtain timely and meaningful information
       on Consortium performance against cost, schedule, and performance
       requirements (finding C).

   •   The program manager had not implemented specified processes, documentation,
       and reporting requirements in the risk management plan. As a result, the
       program manager and the Consortium members were not using the risk
       management plan to promote continuous risk assessment and to timely and
       effectively inform acquisition decision makers on program risk and risk
       mitigation (finding D).

Management Comments. In response to the draft report, the Commander, Army
Training and Doctrine Command stated that the draft operational requirements
document was revised to identify reliability as a critical performance parameter for
contractor-furnished equipment for Block II of the Land Warrior System. The program
manager agreed to provide a lessons-learned report to the Army acquisition community
based on his experience using an other transactions agreement. Also, the program
manager and the Director, Defense Contract Management Agency stated that they
would revise the June 2001 administration delegation to better define administration
support to the program office. Further, the Director, Defense Contract Management
Agency stated that his agency would establish delegation agreements or quality
assurance letters of instruction, as needed, for agency offices located near facilities of
contractors in the Land Warrior Consortium. Finally, the program manager stated that
he would establish a schedule and document minutes of the risk management board
meetings, include risk management elements in a database, and provide program staff
with risk management training. The Director, Operational Test and Evaluation
provided unsolicited comments, stating that the Commander, Army Training and
Doctrine Command should establish a total system reliability requirement, including
both contractor-furnished and Government-furnished equipment. Because Army and
Defense Contract Management Agency comments were responsive to the draft report
recommendations, no additional comments are required.




                                            ii
Table of Contents
Executive Summary                                                          i

Introduction
        Background                                                         1
        Objectives                                                         3

Findings
A.   Force Structure and Operational Requirements                          4
B.   Performance Metrics for Other Transactions Agreement                 10
C.   Maximizing Use of Defense Contract Management Agency Resources       14
D.   Risk Management Plan                                                 20

Appendixes
        A. Scope and Methodology
            Scope                                                         25
            Methodology                                                   25
            Management Control Program Review                             26
            Prior Coverage                                                26
        B. Versions of Land Warrior System and Associated Equipment       27
        C. Audit Responses to Management Comments Concerning the Report   29
        D. Report Distribution                                            33

Management Comments
        Department of the Army                                            35
        Director, Operational Test and Evaluation                         41
        Defense Contract Management Agency                                42
Background
    The Land Warrior System is a first generation, integrated fighting system for
    dismounted combat soldiers. The Land Warrior System is intended to enhance
    the lethality, command and control, survivability, mobility, and sustainability of
    individual soldiers and infantry units and is intended to be fully interoperable
    with the digital command and control of other platforms. The Land Warrior
    System’s capabilities contribute to the Joint Vision 2010 operational concept of
    situational awareness and dominant maneuver by dismounted forces. The Land
    Warrior System has five subsystems:

           •   Computer and radio. Includes a computer, soldier radio, leader radio,
               and a Global Positioning System;
           •   Software;
           •   Helmet. Includes a helmet mounted display, a night vision intensifier,
               a helmet overlay assembly, and a helmet integrated assembly;
           •   Weapon. Includes the M4 and M249 rifles, a thermal weapon sight,
               close combat optic, an infrared aiming light, and a multi-function
               laser; and
           •   Protective clothing and individual equipment. Includes body armor;
               nuclear, biological, chemical protective clothing; and load bearing
               equipment.

    The Army initiated the Land Warrior Program in August 1994, when the
    Commander, Aviation and Troop Command, approved the program for entry
    into the engineering and manufacturing development phase of the acquisition
    process. After competing the source-selection process, the Program Manager
    for the Land Warrior (the program manager) awarded an engineering and
    manufacturing development contract to Hughes Aircraft Company (now
    Raytheon Systems Corporation). Initially, the Land Warrior Program was
    scheduled to begin operational testing in the third quarter of FY 1998. Because
    of hardware problems encountered during developmental testing in April 1998,
    the program manager halted further system development pending an overall
    program review. Based on the results of the program review performed during
    FY 1999, the program manager:
           •   transferred responsibility for the system integration function from the
               prime contractor to the program manager, and
           •   reduced development by:
               − halting contractor development of the Land Warrior-unique load
                 carrying equipment and body armor and using Government-off-
                 the-shelf equipment instead, and
               − increasing reliance on contractor-off-the-shelf electronics
                 technology.
                                       1
         To implement the program changes, the program manager contracted with
         Exponent, Incorporated, to develop a prototype system. Based on an evaluation
         of the initial prototyping efforts, the program manager asked Exponent to
         deliver 70 prototype systems for further demonstrations. As a result of the
         prototype system’s promising performance during warfighting exercises, the
         program manager established an other transactions agreement1 with a
         consortium of six contractors (the Consortium), including Exponent,
         Incorporated (a nontraditional defense company2); Computer Sciences
         Corporation; Omega Training Group, Incorporated; Pacific Consultants LLC;
         PEMSTAR, Incorporated; and the Wexford Group, International. The other
         transactions agreement required the Consortium to perform a coordinated
         development program for the design, development, integration, fabrication, test,
         delivery, and support of the Land Warrior version 1.0 system during the
         engineering and manufacturing phase of the acquisition process. The other
         transactions agreement was firm-fixed-price, using payable milestones, for a
         performance period of 2 years (fiscal years 2001 through 2003).

         To reduce technical risk and to expedite fielding the Land Warrior’s
         capabilities, the program manager effectively planned an evolutionary
         acquisition strategy to develop and produce the Land Warrior System in three
         sequential blocks. The Block I development and production effort will provide
         Army units with a Land Warrior System that meets the threshold performance
         requirements in the draft operational requirements document, dated October 31,
         2001. Block II and Block III are upgrades that will meet the time-phased
         objective performance requirements in the draft operational requirements
         document.

         Funding for the Land Warrior System is $497.3 million for research,
         development, test and evaluation and $1,940.4 million for procurement. The
         Under Secretary of Defense for Acquisition, Technology, and Logistics (the
         Under Secretary), the milestone decision authority, designated the Land Warrior
         Systems as an acquisition category I program on May 29, 2002, because the
         Land Warrior Program meets the requirements for an acquisition category I
         program based on estimated research, development, test and evaluation costs.


1
 Other transactions agreements are instruments other than contracts, grants, and cooperative agreements
used to stimulate, support or carry out research or prototype projects. Those agreements are not required
to comply with statutes and regulations applicable to contracts, grants, and cooperative agreements, such
as Cost Accounting Standards, the Truth in Negotiations Act, and technical data rights.
2
 A nontraditional defense contractor is a business unit that has not, for a period of at least 1 year prior to
the date of the other transactions agreement, entered into or performed on (1) any procurement contract
that is subject to full coverage under the cost accounting standards prescribed pursuant to section 26 of
the Office of Federal Procurement Policy Act (41 U.S.C. 422) and the regulations implementing such
section; or (2) any other procurement contract in excess of $500,000 to carry out prototype projects or to
perform basic, applied, or advanced research projects for a Federal agency.
                                                      2
Objectives
     The primary objective was to evaluate the overall management of the Army
     Land Warrior System. Because the program was in the engineering and
     manufacturing development acquisition phase, the audit determined whether
     management was cost-effectively readying the system for the production phase
     of the acquisition process. We also evaluated the management control program
     as it related to the audit objective. Appendix A discusses the results of the
     review of management controls, prior audit coverage, as well as the scope and
     methodology of the review.




                                        3
            A. Force Structure and Operational
               Requirements
            The Army had not finalized system requirements in the operational
            requirements document because the Training and Doctrine Command
            (TRADOC) System Manager-Soldier was still defining the force
            structure requirement for the Land Warrior System to accommodate the
            Army’s ongoing transformation to the Objective Force capability. As a
            result of the uncertainty of the force structure, the program manager had
            explored many options, ranging from 13,676 systems costing $3.6 billion
            to 47,245 systems costing $7.6 billion. Multiple options were explored
            because the Army also had not fully defined the mix of components for
            the Land Warrior System, which will also affect system costs. Further,
            TRADOC released a draft operational requirements document for the
            approval of the Army Requirements Oversight Council that did not
            identify reliability as a critical performance parameter for the Block II
            system. This condition occurred because the TRADOC System
            Manager-Soldier did not verify that the released operational requirements
            document fully complied with Joint Staff criteria for defining system
            requirements. Until the Army completes ongoing efforts to fully define
            force structure requirements for the Land Warrior System, it will be less
            able to make informed affordability decisions and to support future
            budget submissions for the program. Also, the Army may develop and
            approve a system for production that does not fully meet user
            requirements.

Policy for Defining Force Structure and Operational
  Requirements
     Chairman of the Joint Chiefs of Staff Instruction 3170.01B, “Requirements
     Generation System,” April 15, 2001, establishes policies and procedures for
     developing, reviewing, validating, and approving operational requirements
     documents. The Instruction requires that the operational requirements document
     provide early definition of force structure, in terms of number of systems
     required, and also define the operational performance requirements for a
     proposed weapon system. The TRADOC, through the System Manager-
     Soldier, is responsible for developing the initial draft version of the operational
     requirements document and then coordinating it with the other DoD
     Components who are responsible for its review and approval.




                                          4
Defining Force Structure Requirements
    Although the April 19, 2002, revision of the draft operational requirements
    document, dated October 31, 2001, included a table with the total production
    quantity of Land Warrior systems broken down by organizational type in the
    program affordability section, the Army had not finalized system requirements
    in the operational requirements document because the TRADOC System
    Manager-Soldier was still defining the force structure requirement for the Land
    Warrior System to accommodate the Army’s ongoing transformation to the
    Objective Force capability. The Army’s transformation to the Objective Force
    capability is a force modernization effort that includes transitioning from the
    current force to the Interim Force, and then to the Objective Force. The
    transformation effort will involve significant organizational changes to the Army
    units that will use the Land Warrior System and to the operational employment
    and critical tasks for duty positions within those Army units. To determine
    effective and efficient requirements for overall numbers of Land Warrior
    systems and the optimal mix of system components, the Army was completing
    studies and analyses for the Land Warrior System that are based on the expected
    force structure change.

    Number of Systems. Instruction 3170.01B requires that the operational
    requirements document state the estimated number of systems needed, including
    spares and those needed for training units. As a result of the uncertainty of the
    force structure, the Land Warrior Program Office (the program office), working
    with the TRADOC System Manager-Soldier and the Army Cost and Economic
    Analysis Center, developed 24 estimates for the number of Land Warrior
    systems that were needed, based on distribution of the system to different types
    of combat personnel. Examples of the internally generated alternative
    distribution estimates that the program office was considering and their
    associated estimated life-cycle costs include the following five distribution
    alternatives:

                                                          Estimated
    Land Warrior Distribution    Number of Systems Life-Cycle Cost (millions)

    All squad members                   47,245                 $7,609

    Half of the riflemen                43,645                   7,207

    No riflemen                         39,325                   6,714

    Squad and team leaders and above    18,053                   4,227

    Squad leaders and above             13,679                   3,600

    As the examples show, the projected life-cycle costs varied from $7.6 billion,
    for providing some version of the Land Warrior Systems to all members of

                                        5
designated squadrons of the active component units, to $3.6 billion, for
providing the Land Warrior System to squad leaders and above. Staff in the
Office of the TRADOC System Manager-Soldier stated that the final force
structure number would mostly likely be in the higher range of estimates. The
Army may further adjust the numbers of required Land Warrior systems based
on the results of the Land Warrior analysis of alternatives that TRADOC System
Manager-Soldier plans to prepare to support the scheduled October or
November 2003 production decision. The analysis of alternatives will examine
the cost and effectiveness of various distributions of Land Warrior systems.
The analysis of alternatives will also assess alternatives to the Land Warrior
System, including a baseline force containing year 2005 infantry systems, and
any foreign system that meets the requirements in the operational requirements
document. The TRADOC System Manager-Soldier delayed starting the analysis
of alternatives for 7 months (from August 2001 to March 2002) because he had
not received a tasking memorandum. However, the analysis of alternatives
integrated process team has met several times to refine the scope of work and
integrate approved documentation.

Mix of Components. The Army was also working to determine the mix of
components for the Land Warrior System that it will provide to soldiers at
various ranks and positions. Like the total number of systems, the mix of
components that the Army provides to soldiers will have a significant effect on
program cost. While every soldier requiring the Land Warrior should receive
the basic system capability, certain positions will require additional system
equipment. To accommodate the varying requirements, the Army is developing
the Land Warrior System in two versions: the Soldier and the Leader as
described below:

       Soldier. The Soldier version is the basic Land Warrior System and
includes the five subsystems of computer and radio, software, integrated helmet
assembly, weapons, and protective clothing and individual equipment. The
Soldier radio provides intra-squad voice and data communications over a limited
distance.

        Leader. The Leader version is the Soldier version with a handheld, flat
panel display and keyboard and the multi-band, inter- and intra-team radio.
Squad leaders can use the handheld, flat panel display and keyboard to obtain
the information on the helmet-mounted display of the integrated helmet
assembly. The radio transceiver is portable and battery operated, capable of
providing both secure and nonsecure voice and data communications from the
small unit squad leader to the company commander. The radio also has
extended range communications for certain mission areas such as the medic or
forward observer.

Because the Land Warrior is a modular system, the Army is able to vary
components within the two basic versions. For example, a soldier may get a
medium thermal weapon sight rather than a light thermal weapon sight on a


                                   6
    weapon depending on the soldier’s mission or tasks. Appendix B provides
    further details on the components included in the two basic versions of the Land
    Warrior System.

    In July 2001, the TRADOC System Manager-Soldier prepared a Basis of Issue
    Plan - Task Analysis for duty positions within an 82nd Airborne battalion to
    assist in the most efficient and cost-effective distribution of the two versions of
    the Land Warrior System and variants within each version. Based on the
    operational employment and critical tasks for each duty position, the task
    analysis determined whether the duty position required the Land Warrior
    System, and if so, the task analysis recommended the mix of components. While
    there may be common aspects between an 82nd Airborne battalion and other
    types of battalions, such as the Rangers, the Interim Brigade Combat Teams,
    and the Mechanized units, the Army planned to expand the task analysis to
    consider Land Warrior System requirements for duty positions in other Army
    organizational units to ensure the most efficient and cost-effective distribution of
    the Land Warrior capabilities for the complete force structure.

    The program manager provided estimated unit costs for system hardware of
    $17.8 thousand for the Soldier version and $20.2 thousand for the Leader
    version.

Preparing the Operational Requirements Document
    In October 2001, TRADOC, through the System Manager-Soldier, prepared the
    draft operational requirements document. However, the draft document did not
    identify reliability as a critical performance parameter for contractor-furnished
    equipment for Block II. Instruction 3170.01B requires DoD Components to
    include mission-critical system requirements as key performance parameters in
    operational requirements documents. Program managers must meet key
    performance parameters before milestone decision points or the milestone
    decision authority may not approve the program for entry into the next phase of
    the acquisition process. While the draft operational requirements document
    established reliability for contractor-furnished equipment, in terms of probability
    of mission-ending failure, as a key performance parameter for Block I of the
    Land Warrior System, the document indicated that reliability for contractor-
    furnished equipment was a noncritical requirement for Block II. In April 2002,
    the TRADOC System Manager-Soldier removed the reliability requirement for
    contractor-furnished equipment, from the October 2001 draft operational
    requirements document.

    The reliability of contractor-furnished equipment must remain a key
    performance parameter as the program manager develops the evolutionary
    program blocks. As defined in the draft operational requirements document, the
    Block II Land Warrior System will significantly upgrade system capabilities,
    including increasing communication and situational awareness, decreasing
    system weight, and improving system power source. Those system upgrades

                                         7
    will involve upgrading contractor-furnished equipment. Accordingly, TRADOC
    should continue to include reliability of contractor-furnished equipment as a key
    performance parameter for Block II so that the Army acquisition decision
    makers will continue to emphasize reliability as the Land Warrior System
    evolves.

Conclusion
    Until the Army fully defines force structure requirements for the Land Warrior
    System, it will be less able to make informed affordability decisions and to
    support future budget submissions for the program. The Army will have
    difficulty prioritizing expenditures for the Land Warrior System until it
    completes ongoing efforts to fully define the required quantity and component
    mix for the Land Warrior System. Additionally, until TRADOC modifies the
    draft operational requirements document to comply with Instruction 3170.01B,
    the Army may develop and approve a system for production that does not fully
    meet user requirements.

Management Comments on the Finding and Audit Response
    Summaries of management comments on the finding and audit response are in
    Appendix C.


Recommendation, Management Comments, and Audit
  Response
    A. We recommend that the Commander, Army Training and Doctrine
    Command revise the draft operational requirements document for the Land
    Warrior System to identify reliability as a critical performance parameter
    for contractor-furnished equipment for Block II.

    Department of the Army Comments. The Deputy for Systems Management
    and Horizontal Technology Integration, Office of the Assistant Secretary of the
    Army (Acquisition, Logistics and Technology), responding for the Commander,
    TRADOC, concurred, stating that the draft operational requirements document
    for the Land Warrior System was revised to identify reliability as a critical
    performance parameter for contractor-furnished equipment for Block II.

    Deputy Director, Operational Test and Evaluation Comments. Although not
    required to comment, the Deputy Director, Operational Test and Evaluation
    stated that the TRADOC System Manager should establish a total system
    reliability operational requirement that includes both contractor-furnished and
    government-furnished equipment integrated into an overall system.

                                        8
Audit Response. The comments from the Deputy for Systems Management and
Horizontal Technology Integration were responsive to our recommendation.
We agree with the Deputy Director, Operational Test and Evaluation that a total
system reliability operational requirement, including both contractor-furnished
and Government-furnished equipment integrated into an overall system, would
further emphasize overall reliability requirements of the Land Warrior System
during operational testing.




                                   9
           B. Performance Metrics for Other
              Transactions Agreement
           The program manager should have inserted a provision for performance
           metrics in the other transactions agreement with the Consortium to
           measure the benefits of implementing the other transactions agreement
           even though it was not a requirement. This condition occurred because
           the program manager and the Consortium did not implement procedures
           for performance metrics that the Under Secretary of Defense for
           Acquisition, Technology, and Logistics suggested in the “Other
           Transactions Guide for Prototype Projects,” January 2001. As a result,
           the program manager will be less able to provide the acquisition
           community with measurable information on the value of using an other
           transactions agreement for acquisition programs in the system
           development and demonstration phase.

Requirements for Other Transactions Agreements
    The authority for using other transactions agreements gives DoD the opportunity
    to involve nontraditional DoD contractors in the acquisition process by allowing
    DoD to negotiate terms and conditions more customary with commercial
    practices without regard for provisions in the Federal Acquisition Regulation.
    DoD use of other transactions agreements is governed through statutory
    requirements and DoD policy and guidance.

    Statutory Requirements. Section 2371, title 10, United States Code, “Other
    Transactions,” authorizes DoD to carry out basic, applied, and advanced
    research projects using “transactions other than contracts, cooperative
    agreements, and grants.” Within DoD, the transactions are known as “other
    transactions,” and the DoD administers the transactions through “other
    transactions agreements.” In 1994, section 845 of the DoD Authorization Act,
    Public Law 103-160, under the authority of section 2371, permitted the Defense
    Advanced Research Projects Agency to use other transactions agreements to
    include prototype projects for weapons systems that DoD Components propose
    to acquire. Section 804 of the National Defense Authorization Act for FY 1997,
    Public Law 104-201, extended the other transactions authority to the Secretaries
    of the Military Departments and any other official that the Secretary of Defense
    designates. The Secretary of Defense delegated authority and assigned
    responsibility for using other transactions to the Under Secretary of Defense for
    Acquisition, Technology, and Logistics (the Under Secretary).

    DoD Policy and Guidance. In the memorandum “10 U.S. Code 2371,
    Section 845, Authority to Carry Out Certain Prototype Projects,” December 14,
    1996, the Under Secretary required that DoD Components document the reasons
    for using an other transactions and address the benefits expected from using an
    other transactions agreement rather than a contract. To help DoD Components
                                       10
    implement the other transactions authority, the Under Secretary issued the
    “Other Transactions Guide for Prototype Projects,” January 2001 (the Guide).
    The Guide provides a framework for other transactions agreements that DoD
    Components should consider, and apply as appropriate, when using other
    transactions authority for prototype projects. The Guide also specifies
    mandatory requirements related to other transactions.

Performance Metrics
    On June 15, 2001, the Army signed the Agreement for the Engineering and
    Manufacturing of Land Warrior Version 1.0 Prototype Systems (the Agreement)
    between the Land Warrior V1.0 Consortium and the United States of America.
    In the Agreement, the program manager appropriately considered other
    transactions guidance, but he did not insert a provision for performance metrics
    necessary to measure the benefits of implementing the Agreement. The Guide
    in Section C2.2., “Metrics,” states that Government and contractor teams
    working under other transactions agreements are encouraged to track metrics
    that measure the value or benefits directly attributable to the use of the other
    transactions authority. Ideally, those metrics should measure the expected cost,
    schedule, performance, and supportability benefits.

    The program office contracting officials stated that because they had only
    recently issued the agreement (June 2001), they had yet to fully consider
    implementing metrics to measure the benefits of using the Agreement. The
    program was pioneering the use of an other transactions agreement for
    engineering and manufacturing development for a large complex program. The
    use of metrics would demonstrate the benefit of using other transactions
    agreements for other DoD acquisition programs in the system development and
    demonstration phase of the acquisition process. Specifically, the program office
    metrics could measure the cost, schedule, performance, and supportability
    benefits that result from using an other transactions agreement.

Need for Additional Agreement Provisions
    The Land Warrior Program and the DoD acquisition community would benefit
    significantly from adding performance metrics to the other transactions
    agreement to measure the benefits of using other transactions agreements for
    acquisition programs. Without a metrics provision, the program manager will
    be less able to provide the acquisition community with measurable information
    on the value of using other transactions agreements for acquisition programs in
    the system development and demonstration phase of the acquisition process.




                                       11
Management Comments on the Finding and Audit Response
    Summaries of management comments on the finding and audit response are in
    Appendix C.

Recommendation, Management Comment, and Audit
  Response
    B. We recommend that the Program Manager for the Land Warrior
    System, in conjunction with the Agreements Officer, Acquisition Center,
    Army Communications-Electronics Command, modify the “Agreement for
    the Engineering and Manufacturing of Land Warrior Version 1.0 Prototype
    Systems Between the Land Warrior V1.0 Consortium and the United States
    of America,” June 15, 2001, to include provisions for establishing metrics to
    measure the benefits of using an other transactions agreement, as provided
    in the “Other Transactions Guide for Prototype Projects,” January 2001.

    Department of the Army Comments. The Deputy for Systems Management
    and Horizontal Technology Integration, Office of the Assistant Secretary of the
    Army (Acquisition, Logistics and Technology), responding for the Program
    Manager for the Land Warrior System and the Agreements Officer, Acquisition
    Center, Army Communications-Electronics Command, partially concurred,
    stating that the Land Warrior Other Transactions Agreement was in compliance
    with existing requirements for metrics in the Under Secretary of Defense for
    Acquisition, Technology, and Logistics “Other Transactions Guide for
    Prototype Projects,” January 2001. However, the Deputy also stated that the
    Army recognizes that the Guide encourages the Government team to establish
    and track any other metrics that measure the value or benefits directly attributed
    to the use of the other transactions authority, but that there was no mandatory
    requirement to do so. The Deputy stated that it would be impractical to establish
    additional metrics at this time because the other transactions agreement for the
    Land Warrior is coming to an end and will be replaced with a traditional
    Federal Acquisition Regulation-based procurement contract in February 2003.
    The Army response dated July 24, 2002, indicated that the other transactions
    agreement would end within 7 months. As an alternative to the recommended
    action, the Deputy stated that the Program Manager for the Land Warrior
    System was collecting information on lessons learned and experience with the
    use of the other transactions agreement compared to previous experiences with
    Federal Acquisition Regulation-based contracts. The program manager would
    roll this information into an after action report for the benefit of the Army
    acquisition community.

    Audit Response. The comments from the Deputy for Systems Management and
    Horizontal Technology Integration met the intent of our recommendation. We
    recognize that it may not be practical to establish and collect data against
    additional metrics relating to the use of other transactions agreements when the
                                         12
other transactions agreement is nearing an end. The program manager’s
alternative plan for an after action report of lessons learned in using an other
transactions agreement should benefit other Army program managers using
those agreements.




                                     13
           C. Maximizing Use of Defense Contract
              Management Agency Resources
           The delegation agreement (Agreement) between the Agreements Officer
           for the program office and the Defense Contract Management Agency
           (DCMA), Syracuse, provided limited and vaguely defined requirements
           for administrative support on the Agreement because:

               •   the Agreements Officer and DCMA negotiated the Agreement
                   when the Land Warrior System was classified as an acquisition
                   category II program, and

               •   DCMA Syracuse, the DCMA Agreement Administration Center
                   for other transactions agreements, did not establish delegation
                   agreements with other DCMA offices located near Consortium
                   facilities to provide administration support to the Land Warrior
                   Program.

           As a result, the program manager may not obtain timely and meaningful
           program information from DCMA on Consortium performance against
           cost, schedule, and performance requirements in the other transactions
           agreement.

Requirements for Using DCMA Resources
    DoD Regulation 5000.2-R, “Mandatory Procedures for Major Defense
    Acquisition Programs (MDAPs) and Major Automated Information System
    (MAIS) Acquisition Programs,” June 10, 2001, and DCMA Directive 1,
    Contract Management, Section 2.1, “Program Integration,” March 2001, define
    requirements for program office use of contract administration resources at
    contractor facilities. The “Other Transactions Guide for Prototype Projects,”
    January 2001 (the Guide) also addresses program office use of DCMA resources
    to administer other transactions agreements.

    DoD Regulation 5000.2-R requires program managers to make maximum use of
    contract administration office resources at contractor facilities. The Regulation
    further requires program managers and DCMA Contract Administration Offices
    to jointly develop and approve program support plans for contracts on all
    acquisition category I programs to reach agreement on contract oversight needs
    and perspectives.

    Defense Contract Management Agency Directive 1 describes the procedures,
    known as program integration, that DCMA uses to provide contract
    administration support to program managers. The Directive requires DCMA to
    appoint program integrators to lead program support teams for all acquisition
    category I and II programs. DoD Instruction 5000.2, “Operation of the Defense
                                       14
    Acquisition Systems,” January 4, 2001, defines acquisition category I programs
    as major Defense acquisition programs that the Under Secretary of Defense for
    Acquisition, Technology, and Logistics has designated or programs that are
    estimated to require an eventual total expenditure for research, development,
    test and evaluation of more than $365 million or, for procurement, of more than
    $2,190 million in FY 2000 constant dollars. DoD Instruction 5000.2 defines
    acquisition category II programs as major systems that DoD Component heads
    estimate to require an eventual total expenditure for research, development, test
    and evaluation of more than $140 million or, for procurement, of more than
    $660 million in FY 2000 constant dollars.

    In addition, the Guide specifies that DCMA, as part of the Government team, is
    involved in executing other transactions agreements, and states that the program
    office and DCMA should decide the role of DCMA before implementing and
    administering other transactions agreements.

Delegation of Agreement Administration
    Agreement Number DAAB07-01-9-N001, “Delegation of Agreement
    Administration,” June 15, 2001, between the Agreements Officer for the
    program office and DCMA, Syracuse, provided limited requirements for
    administration support on the Agreement. Specifically, the Agreement specified
    that DCMA, Syracuse, would perform the following DCMA checklist items:

       •   payments – provide assistance with Defense Finance and Accounting
           Service processing of invoices, when requested;

       •   periodic program in-process review meetings;

       •   patents;

       •   foreign access approvals;
       •   changes – routine administrative changes, additional action to be
           delegated;

       •   duty free entry assistance;

       •   terminations – equitable adjustment decisions in conjunction with the
           Army Communications-Electronics Command;

       •   Government property administration;

       •   quality assurance when requested (case-by-case basis); and

       •   pre-award and proposal negotiation assistance.


                                         15
The Agreement did not further elaborate on DCMA responsibilities for
supporting the program manager. Defense Contract Management Agency
Directive 1 states that the program manager and the DCMA Director must
establish an agreement for all acquisition category I and II programs. The
Directive further states that the agreement should address the following areas,
which Agreement Number DAAB07-01-9-N001 did not include:

   •   program-specific risks, contractor processes, and technical performance
       areas of special concern to the program manager;

   •   program managers’ desired outcomes and emphasis areas;

   •   focus areas for program support team members and linkage to risk areas
       and desired program outcomes;

   •   communication processes and procedures between the program office
       and the DCMA support team;

   •   schedule and frequency of meetings between the program office and the
       DCMA support team to plan, review, and discuss performance metrics
       and program status;

   •   list of program support team and key program office members, their
       duties and responsibilities, and telephone numbers; and

   •   process and funding to address support team travel in support of the
       program.

Additionally, Agreement Number DAAB07-01-9-N001 did not address the need
for DCMA support from multiple DCMA Commanders. Defense Contract
Management Agency Directive 1 requires that when a work effort involves
multiple prime participants, such as the six companies in the Consortium, the
lead DCMA Commander (DCMA, Syracuse, for the Land Warrior Program) is
responsible for developing an overarching agreement with the program office
and the applicable DCMA Commanders to clarify internal DCMA roles and
responsibilities. In addition, the lead DCMA Commander is responsible for
collecting and reporting program information, actions, and recommendations for
inclusion in the monthly report or other periodic program status reports that
DCMA issues to the program manager.

Justification for Limited Support Requirement in the Agreement. The
Army and DCMA negotiated Agreement Number DAAB07-01-9-N001 when
the Land Warrior System was classified as an acquisition category II program.
As of May 2002, the Under Secretary of Defense for Acquisition, Technology,
and Logistics was in the process of elevating the Land Warrior Program to an
acquisition category I program, based on planned research, development, test,
and evaluation costs and production costs. When queried, program office and
DCMA staff stated that the Guide was not specific on the role of DCMA in
supporting acquisition programs using other transactions agreements. The
                                    16
    program office staff agreed that, when the Land Warrior attains acquisition
    category I status or enters the production phase of the acquisition process in
    CY 2003, they would work with DCMA to enhance Agreement
    Number DAAB07-01-9-N001 to expand DCMA administration support
    requirements as appropriate for an acquisition category I program. Program
    offices are not authorized to use other transactions agreements in the production
    phase of the acquisition process; therefore, the program office must use a
    contract based on the Federal Acquisition Regulation. Defense Contract
    Management Agency Directive 1 clearly specifies the relationship and
    responsibilities between program offices and DCMA for contracts based on the
    Federal Acquisition Regulation.

    Need for Delegation Agreements for Program Support. The extent of
    DCMA support to the Land Warrior Program was also affected because
    DCMA, Syracuse, did not establish delegation agreements with other DCMA
    offices located near Consortium facilities to provide other transactions
    agreement administration support. DCMA assigned the responsibility for
    supporting the Land Warrior Program to DCMA, Syracuse, because it was a
    DCMA Agreement Administration Center for other transactions. While
    DCMA, Syracuse, was able to provide the Land Warrior Program with advice
    and assistance in setting up the Agreement with the Consortium, DCMA,
    Syracuse, officials stated that they could not easily perform program support
    functions because none of the facilities were located near Syracuse. DCMA,
    Syracuse, officials agreed that it would be appropriate for them to establish
    letters of delegation when the Land Warrior program enters the production
    phase of the acquisition process, as provided in DCMA Directive 1, to obtain
    assistance from DCMA offices located near Consortium facilities. The
    Directive states that, as a minimum, letters of delegations must define:

       •   applicable portions of the Agreement;

       •   program-identified risk and key technical performance areas;

       •   specific delegated tasks;

       •   reporting requirements, including format;

       •   points of contact; and

       •   procedures for supporting staff travel in support of the program and for
           reviewing and updating the letter of delegation.

Conclusion
    As a result of the limited and vaguely defined Agreement, the program manager
    may not obtain timely and meaningful program information from DCMA on
    Consortium performance against cost, schedule, and performance requirements

                                        17
    in the other transactions agreement. When program managers fully use DCMA
    resources, DCMA can play an integral role in providing program support.
    DCMA can gather, analyze, and integrate contractor schedule and technical
    performance information for the program manager and influence successful
    program completion. The primary output and value of DCMA support to the
    program manager is in providing early insight, information, analysis, and action
    to prevent, or identify and resolve, existing and potential program problems
    throughout the life cycle of the program. By providing continuous risk
    assessment and risk mitigation, DCMA can increase the likelihood that the
    program manager will succeed in executing the acquisition program.

Management Comments on the Finding and Audit Response
    Summaries of management comments on the finding and audit response are in
    Appendix C.

Recommendations and Management Comments
    C.1. We recommend that the Program Manager for the Land Warrior
    System and the Director, Defense Contract Management Agency revise
    Agreement Number DAAB07-01-9-N001, “Delegation of Agreement
    Administration,” June 15, 2001, to include all administration support areas
    required in DCMA Directive 1, “Program Integration,” March 2001, once
    the Under Secretary of Defense for Acquisition, Technology, and Logistics
    designates the Land Warrior Program as an acquisition category I program
    or the program enters the production phase of the acquisition process.

    Department of the Army Comments. The Deputy for Systems Management
    and Horizontal Technology Integration, Office of the Assistant Secretary of the
    Army (Acquisition, Logistics and Technology), responding for the Program
    Manager for the Land Warrior System, concurred, stating that the Syracuse
    Office of the Defense Contract Management Agency and the Land Warrior
    Program Office are revising the June 2001 administration delegation because the
    Under Secretary of Defense for Acquisition, Technology, and Logistics recently
    designated the Land Warrior Program as an acquisition category I program.

    Director, Defense Contract Management Agency Comments. The Director,
    Major Program Support, Program Support and Customer Relations, responding
    for the Director, Defense Contract Management Agency, concurred, stating that
    the Syracuse Office of the Defense Contract Management Agency is revisiting
    the administration delegation of June 2001 with the Land Warrior Program
    Office. While the Director stated that there may be additional support activities
    that DCMA might provide, he also noted that under the other transactions
    agreement there are fewer requirements and opportunities for the DCMA to
    provide program support than under a traditional cost contract for engineering
    and manufacturing.
                                       18
Audit Response. The comments of the Deputy for Systems Management and
Horizontal Technology Integration and the Director, Major Program Support
were responsive to our recommendation. As noted in the Army response, the
other transactions agreement is nearing an end and will be replaced with a
traditional Federal Acquisition Regulation-based procurement contract in
February 2003. Accordingly, the DCMA should consider providing additional
support activities for the follow-on procurement contract.

C.2. We recommend that the Director, Defense Contract Management
Agency establish delegation agreements with other Defense Contract
Management Agency offices located near Consortium facilities to provide
administration support, as defined in the revised Delegation of Agreement
Administration with the Program Manager for the Army Land Warrior
System once the Under Secretary of Defense for Acquisition, Technology,
and Logistics designates the Land Warrior Program as an acquisition
category I program or the program enters the production phase of the
acquisition process.

Director, Defense Contract Management Agency Comments. The Director,
Major Program Support, Program Support and Customer Relations, responding
for the Director, Defense Contract Management Agency, concurred, stating that
as a result of revisiting the administration delegation, there may be supporting
activities that would require delegation to other DCMA offices located near
Consortium facilities. However, the Director also said that the delegations may
or may not take the form of a formal program integrator subdelegation. For
instance, he stated that DCMA is currently discussing a quality assurance letter
of instruction with the program manager to address the Army’s quality
assurance requirements.

Department of the Army Comments. Although not required to comment, the
Deputy for Systems Management and Horizontal Technology Integration, Office
of the Assistant Secretary of the Army (Acquisition, Logistics and Technology),
stated that the Defense Contract Management Agency will decide which outlying
offices cognizant of the Land Warrior program require delegation and will act
accordingly. However, the Deputy, like the Director above, stated that the
delegations may or may not take the form of a formal program integrator
subdelegation.




                                   19
                D. Risk Management Plan
                The program manager did not implement the specified processes,
                documentation, and reporting requirements in the program risk
                management plan. Specifically, the program manager did not hold risk
                management board meetings, initiate the Dynamic Object-Oriented
                Requirements System3 (DOORS) to establish an up-to-date risk database
                for assessing risk elements, or provide training to program office and
                contractor staff on using DOORS to identify and report risk. These
                conditions occurred because the program manager did not emphasize and
                enforce implementation of the formalized risk management plan. As a
                result, the program manager and Consortium members were not using
                the risk management plan to promote continuous risk assessment and to
                timely and effectively inform the milestone decision authority, the Cost
                Analysis Improvement Group, and the Overarching Integrated Product
                Team of program risk and mitigation efforts.

Risk Management Policy and Guidance
        Policy. DoD Instruction 5000.2 and DoD Regulation 5000.2-R provide risk
        management policy for acquisition programs. Those documents integrate risk
        management into the acquisition process and describe the relationship between
        risk and various acquisition functions.

               DoD Instruction 5000.2. The Instruction requires that program
        managers continually assess and understand program risk before milestone
        decision authorities can authorize a program to proceed into the next phase of
        the acquisition process. The Instruction defines risk management as an
        organized method of identifying and measuring risk and developing, selecting,
        and managing options for handling those risks. The types of risk include
        schedule, cost, technical feasibility, security, technical obsolescence, and others.

                DoD Regulation 5000.2-R. The Regulation requires program managers
        to address risk management in the program acquisition strategy. The Regulation
        requires that the program managers identify the risk areas of the program and
        integrate risk management within the overall program management. In the
        acquisition strategy, the program manager is to explain how risk management
        will reduce system risk to acceptable levels at the time of interim progress
        reviews preceding the development and demonstration, and production and
        deployment phases of the acquisition process.

________________________
3
 The Dynamic Object-Oriented Requirements System (DOORS) is a commercial database management
system. The database contains all the information necessary to satisfy the risk management program
documentation, archiving, and reporting requirements.

                                                 20
    Guidance. The Defense Acquisition University developed the “Risk
    Management Guide for DoD Acquisition,” (the Risk Management Guide),
    February 2001, as a management tool for program managers. The Risk
    Management Guide provides program managers with a reference book for
    dealing with acquisition risks. The Risk Management Guide provides a generic
    risk management plan that program managers can tailor to meet the needs of
    their programs. While a formal risk management plan is not required, program
    managers have found such a plan necessary to help them focus properly on
    assessing and handling program risks.

Implementing the Risk Management Plan
    The “Risk Management Plan for the Land Warrior System,” August 10, 2001,
    established the basic processes, documentation, and reporting requirements for
    the Land Warrior Program and defined the program office’s responsibilities for
    implementing the program to support the overall acquisition strategy. However,
    the program manager had not implemented the specified processes,
    documentation, and reporting requirements in the risk management plan that
    were needed to effectively manage risk. Specifically, the program manager did
    not hold risk management board meetings, initiate the DOORS to establish an
    up-to-date risk database for assessing risk elements, and provide training to
    program office and contractor staff on using DOORS to identify and report risk.

    Risk Management Board. DoD Instruction 5000.2 requires that program
    managers continuously assess program risks to accomplish risk assessment, the
    Risk Management Guide suggests that program offices use an integrated product
    team approach. The program office implemented the guidance by establishing a
    seven-member risk management board, chaired by the Director, Technical
    Management Division. Members from the program office and the Consortium
    were to support the program manager’s decisionmaking through formal
    evaluation of risk issues, approval of mitigation efforts, and prioritization
    among a variety of risk-related efforts. Through March 2002, the risk
    management board had not met.
    Risk Management Database System and Documentation. The Risk
    Management Guide states that the program manager should have a practical
    method for risk management reporting and an information system that supports
    a risk management program. The program manager planned to use the DOORS
    commercial database management system to provide a risk management
    information system for the Land Warrior System but the program office staff
    had not entered the 170 program risk management data elements that it
    identified in September 2001, into the DOORS.

    Risk Management Training. The Risk Management Guide states that a
    successful management program depends, to a large extent, on the level of risk
    management training that the program office members and the functional area
    experts receive. Also, the Risk Management Guide states that risk management

                                      21
    training is necessary to prepare staff for critical tasks, such as risk assessments.
    The Risk Management Guide further states that DoD schools offer some risk
    management training; however, program managers need to organize and
    conduct the principal training for the program office. Through March 2002, the
    program management office had not provided risk management training to
    pertinent program office staff and risk management board staff.

Emphasizing Risk Management
    The Land Warrior Program’s risk management plan was not implemented
    because the program manager did not give early and sustained emphasis to risk
    management. Much of the program manager’s energy and resources were spent
    in restructuring the Land Warrior Program and establishing the Consortium.
    During the audit, the program manager initiated actions to implement the risk
    management plan. Specifically, in March 2002, the program office staff stated
    that they were:

       •   reviewing the list of draft risk issues developed from risk identification;

       •   assigning risk levels for likelihood and consequence, where needed;

       •   compiling a consolidated, manageable list of risk issues for review and
           prioritization by the program office Risk Management Board;

       •   providing weekly assessments in various program areas to the program
           manager; and

       •   incorporating the weekly assessments into the risk management database.

    While the above actions will help the program office to implement the risk
    management plan, the program office also needs to establish and maintain a
    schedule for periodic meetings of the risk management board. Additionally, the
    program office must emphasize populating the DOORS database with risk
    management data elements and updating the risk management data. Further, the
    program manager needs to provide program office staff involved in risk
    management with risk management training. The Risk Management Guide
    states that risk management training should include a three-part framework as
    follows:

       •   Provide everyone with a common vision through training on the program
           acquisition strategy, the companion risk management plan, the program
           manager’s risk management structure and associated responsibilities, and
           the management information system.




                                         22
       •   Include training on the following topics:

           − concept of risk,

           − risk planning,

           − risk identification,

           − risk analysis (as applicable),

           − risk handling, and

           − risk monitoring.

       •   Provide examples in the training of risk management techniques,
           concentrating on the techniques that the program manager plans to
           employ.

Conclusion
    Without fully implementing the risk management plan, the program manager
    and contractors could not use it to promote continuous risk assessment and to
    timely and effectively inform the milestone decision authority, the Cost Analysis
    Improvement Group, and the Overarching Integrated Product Team on program
    risk and risk mitigation. Program managers recognize that risk is inherent in
    any program, and that it is necessary to analyze future program events to
    identify potential risks and take measures to handle them. If program managers
    are to be effective in handling risks, they need to implement a risk management
    plan early in the acquisition process and continue to monitor risk management as
    the program progresses through the acquisition process. The alternative to
    implementing risk management is crisis management, a resource-intensive
    process that is normally constrained by a restricted set of available options.

Management Comments on the Finding and Audit Response
    Summaries of management comments on the finding and audit response are in
    Appendix C.




                                       23
Recommendation and Management Comments
    D. We recommend that the Program Manager for the Land Warrior:

          1. Establish and maintain a schedule for periodic meetings of the
    risk management board.

          2. Analyze and update program risk management data elements in
    the Dynamic Object-Oriented Requirements System on a regular basis.

           3. Provide risk management training to program office staff
    involved in risk management, in accordance with guidance in the “Risk
    Management Guide for DoD Acquisition,” February 2001.

    Department of the Army Comments. The Deputy for Systems Management
    and Horizontal Technology Integration, Office of the Assistant Secretary of the
    Army (Acquisition, Logistics and Technology), responding for the Program
    Manager for the Land Warrior System concurred, stating that the program
    manager will establish a schedule and document the minutes of the risk
    management board meetings. The Deputy also stated that the program manager
    has directed the inclusion of the risk management data elements into the
    Dynamic Object-Oriented Requirements System. Finally, the Deputy stated that
    the program manager is coordinating with the Defense Systems Management
    College to obtain a risk management-training program that he can provide to all
    staff for risk management of the Land Warrior Program and all future
    programs.




                                      24
Appendix A. Scope and Methodology

Scope
    We reviewed documentation dated from September 1993 through April 2002 at
    the offices of the Program Manager for the Land Warrior System; the TRADOC
    System Manager-Soldier, the Army Test and Evaluation Center; the Director,
    Operational Test and Evaluation; the Defense Contract Management Agency;
    Pacific Consultants, LLC; PEMSTAR, Inc.; and Exponent, Inc. Because the
    Land Warrior System was in the engineering and manufacturing development
    phase, the audit concentrated on whether management was cost-effectively
    readying the system for the production phase of the acquisition process.
    Consequently, we focused our review on areas of requirements generation,
    acquisition planning, program assessments and decision reviews, the other
    transactions agreement, and test and evaluation.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD Weapon Systems Acquisition high-risk area.

Methodology
    To evaluate whether the Army was effectively managing the acquisition of the
    Land Warrior System, we examined regulations and guidance, the approved
    mission need statement, the draft operational requirements documents, test plans
    and reports, the other transactions agreement, the risk management plan, and
    the delegation agreement.

    Audit Dates and Standards. We performed this audit from July 2001 through
    May 2002 in accordance with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. A technical expert from the Electronics
    Engineering Branch, Technical Assessment Division of the Audit Followup and
    Technical Support Directorate, Inspector General of the Department of Defense,
    assisted in the audit. The Electronics Engineer assisted the audit team by
    analyzing information received from two of the Consortium contractors.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD and Defense contractors. Further details are
    available on request.


                                       25
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provide reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD Regulation 5000.2-R, acquisition managers are to use program cost,
    schedule, and performance parameters as control objectives to implement the
    requirements of DoD Directive 5010.38. Accordingly, we limited our review to
    management controls that the Army Acquisition Executive established directly
    related to requirements generation, acquisition planning, program assessments
    and decision reviews, the other transactions agreement, and test and evaluation
    for the Land Warrior System. Because we did not identify a material
    management control weakness, we did not assess management’s self-evaluation.

    Adequacy of Management Controls. The Department of the Army had
    established a management control program as defined by DoD
    Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, which relates to the management and oversight of the Land
    Warrior System. The management controls were adequate in that we identified
    no material management control weaknesses applicable to the overall audit
    objectives.

Prior Coverage
    During the last 5 years, the General Accounting Office issued one report on the
    Land Warrior System.

    General Accounting Office Report No. NSIAD 00-28, “Battlefield Automation,
    Army’s Restructured Land Warrior Program Needs More Oversight,”
    December 1999.




                                       26
 Appendix B. Versions of Land Warrior System
             and Associated Equipment
      The Land Warrior System will include two basic versions: the Soldier and the
      Leader. Both versions will include contractor- and Government-furnished
      equipment. Because the Land Warrior is a modular system, the Army is able to
      vary components within the two basic versions to give soldiers within Army
      organizations the most effective and efficient capabilities for their mission. In
      the following list, solid bullets identify components planned for each version of
      the Land Warrior System. Open bullets indicate various military occupations
      that will receive variants of the basic Land Warrior components.



                                Soldier Version
Contractor-Furnished Equipment

      •   Soldier control unit
      •   Computer
      •   Navigation box (Global Positioning System and Dead Reckoning Module)
      •   Helmet integrated assembly and helmet mounted display
      •   Daylight video sight
      •   Batteries (disposable or rechargeable)
      •   Body hub and wiring harness

Government-Furnished Equipment

      •   M4/M16 modular weapon system
      •   M4/M16 modular weapon system with M203
             o Grenadiers
             o Team leaders
      •   M249 semiautomatic assault weapon
             o automatic riflemen
             o M249 light machine gunner
      •   M9 Pistol
             o Medics
      •   M240B Machine gun
      •   Light thermal weapon sight
             o Rifle team leader
             o Automatic riflemen
             o Riflemen
      •   Medium thermal weapon sight
             o M240B gunner

                                         27
                                Leader Version

Contractor-Furnished Equipment

      •   Keyboard
      •   Hand held display
      •   Soldier control unit
      •   Computer
      •   Navigation box (Global Positioning System and Dead Reckoning Module)
      •   Helmet integrated assembly and helmet mounted display
      •   Daylight video sight
      •   Batteries (disposable or rechargeable)
      •   Body hub and wiring harness

Government-Furnished Equipment

      •   Multi-band inter-team and intra-team radio
      •   Medium thermal weapon sight
             o Scout platoon leader
             o Company commander,
             o Rifle platoon leaders
             o Rifle squad leaders
             o Weapons squad leaders
             o Fire support noncommissioned officer
      •   Modular weapon system (all leaders below battalion)
             o Modular weapon system/M203 Engineer Squad Leader only
      •   M9 pistol (Battalion commander and primary staff)
      •   Multifunction laser (laser range finder and digital compass) – selected
          personnel
             o Team leaders
             o Squad leaders
             o Rifle platoon leaders
             o Platoon sergeants
             o Forward observers
             o 60mm section leader
             o Company commander
             o Company fire support officer
             o Scout platoon leader
             o Battalion fire support officer




                                          28
Appendix C. Audit Responses to Management
            Comments Concerning the Report
    Detailed responses to the comments from the Department of the Army and the
    Director, Defense Contract Management Agency on statements in the draft
    report follow. The complete text of those comments are in the Management
    Comments section of this report.

Department of the Army Comments
    The Deputy for Systems Management and Horizontal Technology Integration,
    Office of the Assistant Secretary of the Army (Acquisition, Logistics and
    Technology) provided comments on the Executive Summary and findings A, B,
    C, and D.

    Executive Summary. The Deputy commented that since the draft report was
    released, the Defense Acquisition Executive changed the designation of the Land
    Warrior System from an acquisition category II program to an acquisition
    category I program. Accordingly, all references to ultimate approval authority
    should be changed to the Defense Acquisition Executive.

    Audit Response. We revised the report to refer to the Land Warrior Program
    as an acquisition category I program and to state that the Under Secretary of
    Defense for Acquisition, Technology, and Logistics (the Defense Acquisition
    Executive) is the acquisition milestone decision authority for the program.

    Finding A. The Deputy provided comments on defining Land Warrior fielding
    quantities. Specifically, he stated that:
       •   The revised draft operational requirements document, April 30, 2002,
           defines the Land Warrior System production quantities by Army
           battalion type. He commented further that the exact number of soldiers
           who receive Land Warrior systems may change as the feeder data of the
           basis of issue plan, development testing, and operational testing are
           completed and operational use information is gathered and analyzed.

       •   The variance in quantity cited in the draft report resulted from internal
           staffing and does not represent the Army position or funding
           uncertainties at the Army level. The 24 quantity estimates capture
           potential options that represent a useful process that the Project Manager-
           Soldier and the TRADOC System Manager-Soldier engaged in to help
           the Army support cost-effective programs.

       •   The conclusion paragraph incorrectly stated that the Army cannot
           effectively make informed affordability decisions and prioritize
                                       29
       expenditures for the Land Warrior System until the exact quantity and
       component mix is defined. With respect to the Land Warrior system, the
       Deputy stated that the Army was effectively making affordability
       decisions and prioritizing expenditures based on the currently established
       basis of issue.

Audit Response. In the April 19, 2002, revision of the draft operational
requirements document, the Army defined a total production quantity of
48,801 Land Warrior systems and provided a breakdown by organizational
type. Despite the breakdown by organizational type in the operational
requirements document, the Army still had not fully defined fielding quantities.
As the Deputy stated, the number of Land Warrior systems the Army will need
is still subject to change as the Army completes the feeder data of the basis of
issue plan and developmental and operational testing, and gathers and analyzes
operational use information.

In response to the Deputy’s comments, we revised the report to clarify that the
draft operational requirements document did include fielding quantities, but that
the Army was still fully defining those quantities. Additionally, we revised the
report to clarify that the 24 quantity estimates were formulated at the program
office level and not at the Army level. Further, we revised the conclusion
paragraph to state that, until the Army fully defines force structure
requirements for the Land Warrior System, it will be less able (as opposed to
not able) to make informed affordability decisions to support future budget
submissions for the program.

Finding B. The Deputy commented that it was not appropriate to state that the
“…program manager will not be able to provide the acquisition community with
measurable information on the value of using other transactions agreements for
acquisition programs in the system development and demonstration phase of the
acquisition process….” The Deputy further stated that the Department of the
Army firmly believes in the benefits of sharing lessons learned and its particular
experience in using other transactions agreements with the acquisition
community. In that regard, the program manager is collecting information on
its lessons learned and experience with the Land Warrior other transactions
agreement compared to previous experiences with Federal Acquisition
Regulation-based contracts.

Audit Response. We revised the finding to state that without the performance
metrics, the program manager will be less able (as opposed to not able) to
provide the acquisition community with measurable information on the value of
using the other transactions agreement. As discussed in the response to the
Deputy’s comments on Recommendation B., the Army acquisition community
will benefit from the program manager’s providing information on lessons
learned and experience with the use of the other transactions agreement.




                                    30
Finding C. The Deputy provided comments suggesting that the support role
of DCMA is somewhat reduced under other transactions agreements.
Specifically he stated that:

   •   The goals of other transactions agreements include establishing a closer
       partnering of the DoD Program Office and the Consortium team to
       provide greater flexibility for both parties to execute and manage the
       development of new technology, and streamlining the development
       process by lessening administrative activity to a minimum. To support
       those goals, the Land Warrior Program has a formal advisory committee
       consisting of personnel from the Army Communications-Electronics
       Command, the program office, and each member of the contractor
       Consortium to assess program progress and assist in risk management.

   •   The traditional Delegation of Administration Functions (to DCMA), as
       required in Federal Acquisition Regulation Part 42, does not apply to
       other transactions. The buying organization has discretion in delegating
       administration functions.

The Deputy further commented that personnel at the Army Communications-
Electronics Command, the program office, and the Defense Contract
Management Agency exercised due diligence in discussing the assignment of
additional administrative (business and technical) functions to the Defense
Contract Management Agency. He stated that, after thorough review and
discussion, those DoD personnel closest to the program and most experienced in
the administration of other transactions (the Communications-Electronics
Command contracting team and the DCMA, Syracuse, Other Transactions
Team) concluded that augmenting the delegation with additional DCMA
technical resources would clearly be duplicative and that there were no real
opportunities for DCMA to provide additional value to the process. In this
regard, he stated that the Program Manager-Soldier Systems team was well
staffed, well organized, and thoroughly integrated with the Consortium team.

Audit Response. We recognize that DCMA may have a lesser administrative
support role under other transactions agreements. However, the program
manager and DCMA must work together to ensure that DCMA administrative
support requirements, limited or extensive, are clearly defined is support
agreements. Additionally, the requirements for DCMA support will increase
when the Land Warrior Program enters production in October/November 2003
when the program will use a traditional production contract rather than an other
transactions agreement. At that time, the program manager and DCMA will
have to reassess and redefine DCMA support requirements for the Land Warrior
Program.

Finding D. The Deputy stated that the program manager developed a risk
management plan, identified risk areas, and conducted monthly reviews with the
program team members (both Government and Consortium). He explained that
the monthly reviews included presentation of risk areas and the management and

                                   31
    mitigation of those risk areas. Further, he stated that the program manager had
    complete knowledge of all identified risk areas and their associated risk
    mitigation efforts.

    Audit Response. Although the program manager may have held program
    reviews with program office and contractor staff that included discussion of
    risk, the risk-related discussions were not documented. In his comments to
    Recommendation D., the Deputy indicated that the program manager will
    schedule and document meeting minutes of the risk management board. The
    documentation of risk management board meetings will increase knowledge
    among all the program team members of identified risk areas and risk mitigation
    efforts.

Director, Defense Contract Management Agency Comments
    The DCMA Director, Major Program Support, Program Support and Customer
    Relations, provided comments to Finding C. similar to those of the Army,
    suggesting that the support role of DCMA is somewhat reduced under other
    transactions agreements. Additionally, the Director provided examples of
    support functions that DCMA does not provide under other transactions
    agreements, including no formal quality acceptance procedures for deliverables.
    Additionally, he stated that the other transactions agreement for the Land
    Warrior Program includes a fixed-price milestone arrangement with no cost
    reporting, cost tracking, or progress payments.

    Audit Response. We recognize that DCMA may have a lesser administrative
    support role under other transactions agreements. However, the requirements
    for DCMA support will increase when the Land Warrior Program enters
    production in October or November 2003 when the program will use a
    traditional production contract rather than an other transactions agreement. At
    that time, the program manager and DCMA will have to reassess and redefine
    DCMA support requirements for the Land Warrior Program.




                                       32
Appendix D. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Strategic and Tactical Systems
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Operational Test and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics and Technology)
  Program Executive Officer, Soldier
      Project Manager-Soldier Systems
Commander, Training and Doctrine Command
      Training and Doctrine Command System Manager-Soldier
Commander, Test and Evaluation Command
Commander, Acquisition Center, Army Communications-Electronics Command
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Management Agency
   Commander, Defense Contract Management Agency District East
     Commander, Defense Contract Management Office, Syracuse, New York
   Commander, Defense Contract Management Agency District West

                                          33
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         34
Department of the Army Comments




                 35
36
37
Final Report
 Reference




Page 5




Page 8




               38
39
Final Report
 Reference




Page 21




               40
Director, Operational Test and
Evaluation Comments




                   41
Defense Contract Management Agency
Comments




                 42
43
44
Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense prepared this report. Personnel in the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Mary L. Ugone
John E. Meling
Harold C. James
Patrick E. McHale
Shaun B. Jeffery
Bradford C. Green
Jaime A. Bobbio
Jacqueline N. Pugh
